Court of Appeals, State of Michigan
ORDER
People of MI v Jason Michael Jett

Deborah A. Servitto
Presiding Judge

Docket No.

351940

Mark J. Cavanagh

LC No.

2019-000195-FH

Jonathan Tukel
Judges

The Court orders that the application for leave to appeal is DENIED for lack of merit in
the grounds presented.

i

A true copy entered and certified by, Jerome W. Zimmer Jr., Chief Clerk, on

t

Date

§

Order

Aopaoc^ t\
Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

July 28,2020

ChiefJustice

David F. Viviano,

161125

ChiefJustice Pro Tern

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
SC: 161125

v

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

CO A* 351940

Macomb CC: 2019-000195-FH
JASON MICHAEL JETT,
Defendant-Appellant
/

On order of the Court, the application for leave to appeal the February 10, 2020
order of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court

I, Larry S. Royster, Cleric of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at foe direction of foe Court
July 28,2020
10720

Clerk

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case No. 2019-0195-FH

vs.
JASON MICHAEL JETT,
Defendant.
/

OPINION AND ORDER
Defendant Jason Michael Jett has filed a challenge to jurisdiction.
I. BACKGROUND
Defendant Jason Michael Jett stands charged with: I. Child sexually abusive activity
contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to commit
a crime contrary to MCL 750.145d(2)(f). He was bound over January 16, 2019 following a
preliminary examination in the 41B Judicial District Court.
On April 16, 2019, defendant moved to quash the felony information. Defendant
contended he went to the Concorde Inn to have sex with an adult rather than a minor child. In
response, People asserted defendant tried to. set up a date for sex with and asked for pictures of a
fourteen-year-old girl. The motion to quash was denied June 5,2019.
Defendant has now filed a challenge to jurisdiction.
E. ANALYSIS
Defendant challenges-the subject-matter and personal jurisdiction of this Court.
As a preliminary matter, Tina Renee Borgers can not represent defendant in this case; she

/

<<£)
—rt\e£JE /Q££tN6

fV(W

is not a licensed attorney. MCL 600.916(1) (person must be licensed and authorized to practice
law) and Attorney Search, State Bar of Michigan <https://www.zeekbeek.com/SBM/SearchResults#lname=Borgers&mtype=good&region=MI> (accessed September 25, 2019) (yielding a
negative search for Borgers among licensed attorneys).
Borgers signed the “Notice of Hearing and Motion” that requested relief in the form of a
dismissal with prejudice. Given her lack of licensure, Borgers* actions (especially given her use
of the plural pronoun “we” and in light of defendant Jason Michael Jett’s attempt to name her as

constitutive —zed ***«£.

** ^

566; 664 NW2d 151 (2003) (“a person engages in the practice of law when he counsels or assists

^

'

another in matters that require the use of legal discretion and profound legal knowledge”).
Therefore, Borgers is guilty of contempt of court MCL 600.916(1) (person engaged in
unauthorized practice of law is guilty of contempt of court). She shall immediately cease and
desist from further activities constituting the unauthorized practice of law or face contempt
charges.
Defendant’s reliance on "UCC 1-308” (actually MCL 440.1308) is misplaced. The
Uniform Commercial Code does not apply to this criminal case. People v Dempster, 396 Mich
700, 708; 242 NW2d 381 (1976) (UCC governs commercial transactions); see also MCL
440.1103(l)(a) and (b).
Defendant has not identified any factual basis or cited other legal authority in support of
his superficial jurisdictional challenge. Consequently, the motion need not be further addressed.
See People v Leonard, 224 Mich App 569, 588; 569 NW2d 663 (1997) (party may not simply
announce a position or argument in a brief and then leave it up to the court to discover and
rationalize the basis of his claims).

<

!

Notwithstanding, defendant stands charged with two felonies. Circuit courts have
I

jurisdiction possessed by courts of record at common law, including die authority to adjudicate
felony charges. MCL 600.601 and People v Ham-Ying, 178 Mich App 601, 607; 444 NW2d 529
(1989) (circuit courts have exclusive jurisdiction to try felony offenses). Hence, this Court has
subject-matter jurisdiction to hear this case.

No slatiG'b Oz/uituumt

Moreover, defendant allegedly committed criminal acts in Michigan, was arrested in
Michigan and resides in Michigan. Thus, this Court has personal jurisdiction over defendant.
MCL 600.701(1) and (2).
m. CONCLUSION
For the reasons set forth above:
A. The appointment of Tina Renee Borgers as legal counsel is DISMISSED and
B. Defendant Jason Michael Jett’s challenge to jurisdiction is DENIED.
This Opinion and Order neither resolves the last pending claim in this matter nor closes
the case. MCR 2.602(A)(3).
:

IT IS SO ORDERED.

HONORABLE RICHARD L. CARETTI
Circuit Court Judge
DATE: September 25,2019
cc:

Bill Harding, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

OF /tfjfS,

A

C°w Cferff

3

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case No. 2019-0195-FH

vs.

JASON MICHAEL JETT,
Defendant.

OPINION AND ORDER
Recent filings in this matter require addressing.
I. BACKGROUND
Defendant Jason Michael Jett stands charged with: 1 Child sexually abusive activity
contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to commit
a crime contrary to MCL 7.50.145d(2)(f)- He was bound over. January 16, 2019 following a
preliminary examination in the 41B Judicial District Court
On April 16, 2019, defendant moved to quash the felony information. Defendant
contended he went to the Concorde Inn to have sex with an adult rather than a minor child. In
response, People asserted defendant tried to set up a date for sex with and asked for pictures of a.
fourteen-year-old girl. The motion to quash was denied June 5,2019.
Various missives have now been filed in this action.
H. ANALYSIS
First, defendant has filed a ‘‘Notice of Rogatory Appointment” to settle this matter with
respect to the trust/corporate entity named JASON MICHAEL JETT, Defendant s reference to a

separate corporate entity citizen is nothing more than reliance on the repeatedly discredited
sovereign citizen/redemptionist theory. See, e.g., US v Benabe, 654 F3d 753,767 (CA 7,2011);
US v Hart, 545 F Supp 470,474 (D ND, 1982), affd 701 F2d 749 (CA 8, 1983); McLaughlin v
CitiMortgage, Inc, 726 F Supp 2d 201, 214 (D Conn, 2010); Anderson v O'Sullivan, 224 Md
App 501, 508-513; 121 A3d 181 (2015); and Blocker v US Bank Nat‘l Ass’n, 993 NE2d 1154,
U57 (Ind App, 2013). Moreover, judges are neutral arbiters in the cases before them and are
prohibited from having an interest in those cases. People v Cobbs, 443 Mich 276,281-282; 505
NW2d 208 (1993), quoting People v Killebrew, 416 Mich 189,202,205; 330 NW2d 834 (1982)
(“judicial involvement must be limited in order ‘to...retain the function of the judge as a neutral
arbiter, ancL.an impartial dispenser of justice’ ” and “trial judge’s role...shall remain that of a
detached and neutral judicial official”); see also MCR 2.003(C)(1)(f), 2.003(C)(1)(g) and
6.001(D); and Code of Judicial Conduct, Canons 2(A), 2(B), (2)(C), 3(A)(7) and 3(A)(12).
Consequently, the Court declines to act as defendant’s fiduciary.
Second, defendant has submitted a “Truth Affidavit in the Nature of Supplemental Rules
for Administrative and Meritime [sic] Claims Rules”. Significantly, this proceeding is a criminal
matter rather than a commercial or maritime matter. Hence, defendant’s reliance on uncited
commercial and/or maritime law wholly lacks merit Additionally, defendant’s affidavit fails to
comply with MCR 2.119(B)(1). Therefore, defendant’s affidavit is invalid.
Third, defendant has submitted an “Affidavit Notice of Liability Regarding Trespass Fee
Schedule and Remedy”. However, defendant can not unilaterally impose a contract upon anyone.
Contrast Mallory v Detroit, 181 Mich App 121, 127; 449 NW2d 115 (1989) (setting forth the
essential elements of a contract, including mutuality of agreement that is lacking here). Recall
also that this is a criminal matter and defendant is apparently seeking liquidated commercial

2

and/or tort damages. But see UAW-GM Human Resource Center v KSL Recreation Corp, 228
Mich App 486, 508; 579 NW2d 411 (1998) (validity of liquidated damages provision is a
question of law); and compare El Ameen Bey v Stumpf, 825 F Supp 2d 537, 551 (D NJ, 2011)
(rejecting filing consisting of “nothing but gibberish mixed with senselessly-picked Latin terms,
constitutional phrases and pointless rhetoric”).
Fourth, “tinA renEE” has submitted a letter essentially challenging the. proofs in this
matter. However, it is well established “that the jury is the sole judge of the facts. It is the
function of the jury alone to listen to testimony, weigh die evidence and decide the questions of
fact” People v Palmer, 392 Mich 370,375; 220 NW2d 393 (1974), citing People v Mosden, 381
Mich 506,510; 164 NW2d 26 (1969).
Finally, MCR 2.107(A)(1) requires a party filing a document to serve a copy of every
document on the other parties. MCR 2.111(A)(1) requires all allegations in a pleading to be
clear, concise and direct. MCR 2.119(A)(1) requires motions to state with particularity the
grounds and authority on which they are based. MCR 2.119(A)(2) requires motions to be
accompanied by briefs citing proper authority. The Code of Judicial Conduct, Canon 3(A)(4)
precludes a judge from considering ex parte communications. The noted missives violate these
various procedural and ethical rules. Defendant is forewarned that further divergences may result
in an appropriate sanction. MCR 1.109(E)(6), 1.109(E)(7), 2.115(B) and 2.625(A)(2).
ffl. CONCLUSION
The referenced missives shall be filed and no additional action will be taken on the
missives. This decision is without prejudice to defendant Jason Michael Jett’s right to present
any applicable and legally recogni2ed defenses at trial.

3

This Opinion and Order neither resolves the last pending claim in this matter nor closes
the case. MCR 2.602(A)(3).
1TIS SO ORDERED.

HONORABLE RICHARD L. CARETTI
Circuit Court Judge
DATE: September 25,2019
cc:

Bill Harding, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

$!£hard
SEP is2013
8'!-e-^^*TYeUR,f
CburtCferff

st

4

» ..

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case No. 2019-0195-FH

vs.
JASON MICHAEL JETT,
Defendant

OPINION AND ORDER
Recent additional filings in this matter require addressing.
I. BACKGROUND
Defendant Jason Michael Jett stands charged with: .1 Child sexually abusive activity
contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to commit
a crime contrary to MCL 750.145d(2)(f). He was bound over January 16, 2019 following a
preliminary examination in the 41B Judicial District Court.
On April 16, 2019, defendant moved to quash the felony information. Defendant
contended he went to the Concorde Inn to have sex with an adult rather than a minor child. In
response, People asserted defendant tried to set up a date for sex with and asked for pictures of a
fourteen-year-old girl. The motion to quash was denied June 5,2019.
Various additional missives have now been filed in this action.
H. ANALYSIS
First, defendant has filed a “Certificate of Sole Proprietorship” registering his name as a
business. The significance of this filing is unclear. However, the Certificate was not filed until

September 23, 2019, well after the charged offenses occurred. Hence, the Certificate is of no
apparent significance to this action.
Second, defendant has filed a “Written in the Private Letter to William Harding
P#28342’\ Having chosen to file this written communication in this action, defendant has waived
any privacy therein. As the communication is directed to Harding, no further analysis is
necessary.
Third, defendant has filed a “Written in the Private Letter to Maroun J Hakim P#28489”.
Again, having chosen to file this written communication in this action, defendant has waived any
privacy therein. As die communication is directed to Maroun, no further analysis is necessary.
Additionally, MCR 2.107(A)(1) requires a party filing a document to serve a copy of
every document on the other parties. MCR 2.111(A)(1) requires all allegations in a pleading to
be clear, concise and direct. MCR 2.119(A)(1) requires motions to state with particularity the
grounds and authority on which they are based. MCR 2.119(A)(2) requires motions to be
accompanied by briefs citing proper authority. The noted missives violate these various
procedural rules. Defendant is forewarned that further divergences may result in an appropriate
sanction. MCR 1.109(E)(8), 1.109(E)(7), 2.115(B) and 2.625(A)(2).
Iff. CONCLUSION
The additionally referenced missives have been filed and no further action will taken on
these missives.
This Opinion and Order neither resolves the last pending claim in this matter nor closes
the case. MCR 2.602(A)(3).

2

ITIS SO ORDERED.

Honorable richard l. caretti
Circuit Court Judge
DATE: September 26,2019
cc:

Bill Harding, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

rO/

—~'?o\
.ow...
\*i

? * 5 *1

<OK

3

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case No. 2019-0195-FH

vs.
JASON MICHAEL JETT,
Defendant.

OPINION AND ORDER
Tina Renee Borgers has filed a request.for a subpoena.
I. BACKGROUND
Defendant Jason Michael Jett was charged with: I. Child sexually abusive activity
contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to commit
a crime, contrary to MCL 750.145d(2)(f). He was bound over January 16, 2019 following a
preliminary examination in .the 4 IB Judicial District. Court.
On April 16, 2019, defendant moved to quash the felony information. Defendant
contended he went to the Concorde Inn to have sex with an adult rather than a minor child. In
response, People asserted defendant tried to set up a date for sex with and asked for pictures of a
fourteen-year-old girl. The motion to quash was denied June 5,2019.
Tina Renee Borgers sent a letter dated May 10, 2019 of “due diligence” that essentially
challenged the proofs in this matter. On September 6, 2019, defendant filed a “Notice of
Rogatory Appointment” and a “Truth Affidavit in the Nature of Supplemental Rules for
Administrative and Meritime [sic] Claims Rules”. He filed an “Affidavit Notice of Liability

1

Regarding Trespass Fee Schedule and Remedy” on September 9, 2019. An Opinion and Order
dated September 25, 2019 held the missives were invalid and that no further action would be
taken on them; the Court was willing to overlook a single overexuberant act by Borgers in
seeking relief on defendant’s behalf.
On September 17, 2019, defendant filed an “Affidavit of Exhibits”1 for the purported
purpose of “present[ing] our [sic] defense”. He also filed a “Notice and Declaration of
Cancellation and Revocation” on September 20,2019 that stated he was voiding any agreements
between himself and the United States of America and/or State of Michigan. The missives again
violated MCR 2.107(A)(1) (requiring a party filing a document to serve a copy of every
document on the other parties), MCR 2.1.11(A)(1) (requiring all allegations in a pleading to be
clear, concise and direct), MCR 2.119(A)(1) (requiring motions to state with particularity the
grounds and authority on which they are based) and MCR 2.119(A)(2) (requiring motions to be
accompanied by briefs citing proper authority); and also violated MCR 2.119(C)(1) (requiring
notice of a hearing on a motion). Consequently, no action was taken on these missives.
On September 20,2019, defendant filed a “Challenge of Jurisdiction” that also sought to
appoint Borgers as his counsel. In conjunction therewith, Borgers filed, a Notice’of Hearing and
Motion on September 20, 2019 seeking to dismiss this matter, she signed the pleading that
identified her as “Defendant’s GEN. COUNCIL [sic] OF RIGHT”. A second Opinion and Order
dated September 25, 2019, held Borgers could not represent defendant because she was not a
licensed attorney, held Borgers was guilty of contempt of court for her unauthorized practice of
law, warned Borgers that further activities constituting the unauthorized practice of law would
result in a contempt charge and held defendant’s challenge to jurisdiction lacked merit. A copy
'The “Affidavit of Exhibits” consisted of an “Affidavit if [sic] Truth” in which he essentially denied any
wrongdoing, a copy of the Preliminary Examination title page and an unsigned copy of the Felony Complaint.
2

1
5-

of the decision was mailed to Borgers.
On September 24, 2019, defendant filed a “Certificate of Sole Proprietorship” and
documents entitled “Written in the Private Letter to William Harding P#28342” and “Written in
the Private Letter to Maroun J Hakim P#28489”. An Opinion and Order dated September 26,
2019 concluded the “Certificate of Sole Proprietorship” lacked any apparent significance and the
other documents required no analysis.
Meanwhile, defendant filed a second “Affidavit of Exhibits” on September 25, 2019 for
the purported purpose of “presenting] our [sic] defense”.2 Given the continued violation of the
identified court rules, no action was taken, on the missive.
Defendant was scheduled for trial on September 26,2019. When the case was called and
defendant was asked to join his counsel, Borgers interrupted the proceedings to announce, “We
are living beings, we wish for remedy”. The Court informed Borgers, again, that she was not
allowed to practice law, her submission of pleadings constituted the unauthorized practice of law
and if she attempted one more time to act'as defendant’s attorney or speak on his behalf that she
would be held in direct contempt of court. Borgers then asked if the Court was “offering us a
contract” and “if so, we would like full disclosure”. The Court held Borgers in direct contempt of'
court under MCL 600.916(1) and ordered her taken into custody. Borgers continued to disrupt
the proceedings as she was escorted from the courtroom; her incessant vituperations in the
hallway can also be heard in the courtroom. The Court had Borgers brought back into the
courtroom about one hour later, struck the finding of contempt, warned her against the further
unauthorized practice of law and ordered her released.

2This second “Affidavit of'Exhibits" appended all of the previously identified documents' as well as purported
transcripts of police body camera footage, texts from Macomb County Sheriff Detective Aaron Hurley to defendant
and response texts from defendant to Det Hurley; a, document entitled “Written in the Private Letter to Richard
Caretti”; and copies of MCL 750.145c and 750.145d.
3

Borgers has now filed a request for a subpoena on behalf of defendant.
II. ANALYSIS
As a preliminary matter,

«

t

[t]here is no general constitutional right to discovery in a

criminal case’ ”. People v Dickinson, 321 Mich App 1, 18-19; 909 NW2d 24 (2017), citing
People v Jackson, 292 Mich App 583, 590; 808 NW2d 541 (2011), quoting Weatherford v
Bursey, 429 US 545, 559; 97 S Q 837; 51 L Ed 2d 30 (1977). Instead, “[t]he Michigan Court
Rules govern the scope of discovery in a criminal case.” Dickinson, 321 Mich App at 19, citing
MCR 6.201 and People v Phillips, 468 Mich 583, 589; 663 NW2d 463 (2003). The subpoena is
improperly addressed to this Court. Contrast MCR 6.201(A) and (B). The information sought is
also not relevant to any issue to be determined in this matter and not necessary to a fair trial or
proper preparation of a defense. See MRE 401 and People v Graham, 173 Mich App 473,477;
434NW2d 165 (1988).
Moreover, only parties to an action or attorneys are permitted to seek a subpoena. MCR
2.305(A)(1) and 2.506(B)(1). Borgers, despite listing herself as a defendant/respondent on the
subpoena request, is not a party to this action. She is also not an attorney. Attorney Search, State
Bar ofMichigan <https://www.zeekbeek.com/SBM/Search-Results#lname=Borgers&intype=
good&region=Ml> (accessed October 3., 2019) (yielding a negative search for Borgers among
licensed attorneys). Therefore, Borgers is not entitled to request a subpoena.
Significantly, the subpoena request contains a “DEMAND TO DISMISS AB ANITO
NUK PRO TUNK BEATUS VENERIS UT TE IPSUM, NO MORE BULLYING”. Roughly
translated, Borgers seeks to have this matter ‘dismissed from the start through this happy
Friday131

and,

yourself,

no

more

bullying’.

See

Google

Translate,

Google

<https://translate.google.com/?rlz=l Cl GCEV_en&um=l &ie=UTF-8&hl=en&client=tw-ob#auto

4

/en/veneris+beatus>

and

<https://translate.google.com/?rlz=lCl GCEV_en&um=l &ie=UTF-

8&hl=en&client=tw-ob#view=shome&op=translate&sl=auto&tls=en&text!=et%20te%20ipsmn>
(accessed October 3, 2019). Consequently, Borgers’ filing of the subpoena request constitutes
the unauthorized practice of law. Detroit Bar Ass 'n v Union Guardian Trust Co, 282 Mich 216,
223; 276 NW 365 (1937) (practice of law includes drafting of documents to be presented to
courts) and MCL 600.916(1) (person must be licensed to practice law).
Accordingly, Borgers is again guilty of contempt of court. MCL 600.916(1) (person
engaged in unauthorized practice of law is guilty of contempt of court). The matter will be
reported to the State Bar of Michigan Unauthorized Practice of Law Committee for possible,
legal action.
III. CONCLUSION
For the reasons set forth above, Una Renee Borgers’ request for a subpoena is
QUASHED. MCR 2.305(A)(4)(a) and 6.201(E).
This Opinion and Order neither resolves the last pending claim in this matter nor closes
the case. MCR 2.602(A)(3).

HONORABLE RICHARD L. CARETTI
Circuit Court Judge
DATE: Octobe
cc:

Bill Harding, Esq.
Maroun Hakim, Esq*.
Jason Michael Jettgo
Tina Renee Borgersn

i

a

}

&

3The subpoena request was filed on Friday, September 27,2019.
5

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case No. 2019-0195-FH

vs.

JASON MICHAEL JETT,
Defendant

OPINION AND ORDER
Defendant Jason Michael Jett has filed a “Notice of Revocation of Power of Attorney &
Revocation of Signature Affidavit’.
LBACKGROUND
Defendant Jason Michael Jett was charged with: I. Child sexually abusive activity
contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to commit
a crime contrary to MCL 750.145d(2)(f). He was bound over January 16, 2019 following a
preliminary examination in the 41B Judicial District Court.
On April 16, 2019, defendant moved to quash the felony information. Defendant
contended he went to the Concorde Inn to have sex with an adult rather than a minor child. In
response, People asserted defendant tried to set up a date for sex with and asked for pictures of a
fourteen-year-old girl. The motion to quash was denied June 5,2019.
On September 6,2019, defendant filed a “Notice of Rogatory Appointment” and a ‘Truth
Affidavit in the Nature of Supplemental Rules for Administrative and Meritime [sic] Claims
Rules”. He filed an “Affidavit Notice of Liability Regarding Trespass Fee Schedule and

Remedy” on September 9, 2019. An Opinion and Order dated September 25, 2019 held the
missives were invalid and .that no farther action would be taken on them.
On September 17, 2019, defendant filed an “Affidavit of Exhibits”1 for the purported
purpose of “present[ing] our [sic] defense”. He also filed a ‘'Notice and Declaration of
Cancellation and Revocation” on September 20,2019 that stated he was voiding any agreements
between himself and the United States of America and/or State of Michigan. Hie missives again
violated MCR 2.107(A)(1) .(requiring a party filing a document to serve a copy of every
document on the other parties), MCR 2.111(A)(1) (requiring all allegations in a pleading to be
clear, concise and direct), MCR 2.119(A)(1) (requiring motions to state with particularity the
grounds and authority on which they are based) and MCR 2.119(A)(2) (requiring motions to be
accompanied by briefs citing proper authority); and also violated MCR 2.119(C)(1) (requiring
notice of a hearing on a motion). Consequently, no action was taken on these missives.
On September 20,2019, defendant filed a “Challenge of Jurisdiction” that also sought to
appoint Tina Renee Borgers as his counsel. A second Opinion and Order dated September 25,
2019, held Borgers could not represent defendant because she was not a licensed attorney,
Borgers was guilty of contempt of court for her unauthorized practice of law and defendant’s
challenge to jurisdiction lacked merit. A copy of the decision was mailed to Borgers.
On September 24, 2019, defendant filed a “Certificate of Sole Proprietorship” and
documents entitled “Written in the Private Letter to William Harding P#28342” and “Written in
the Private Letter to Maroun J Hakim P#28489”. An Opinion and Order dated September 26,
2019 concluded the “Certificate of Sole Proprietorship” Jacked any apparent significance and the
other documents required no analysis.
'The “Affidavit of Exhibits” consisted of an “Affidavit if [sic] Truth” in which he essentially denied any
wrongdoing, a copy of the Preliminary Examination title page and an unsigned copy of the Felony Complaint.
2

Meanwhile, defendant filed a second “Affidavit of Exhibits” on September 25, 2019 for
the purported purpose of “present[ing] our [sic] defense”.2 Given fixe continued violation of the
identified court rules, no action was taken on the missive.
On September 26, 2019, defendant filed a document designated as “Affirmative
Defenses, Counter-complaint and Common Factual Allegations”. However, defendant pled no
contest to an added Count HI—accosting a child for immoral purposes contrary to MCL
750.145a—on September 26,2019 in exchange for the dismissal of Counts I and II. In pleading
no contest, defendant waived any affirmative defenses; he also conceded the facts adduced at his
preliminary examination as a basis for his plea, which also defeated the allegations of his
‘counter-complaint’.
Defendant has now filed a “Notice of Revocation of Power of Attorney & Revocation of
Signature Affidavit”.
!

H. ANALYSIS
Defendant seeks to withdraw his signature on the Advice of Rights form.
Defendant avows he “was coerced, deceived and defrauded by heinous acts of non­
disclosure” into signing the Advice of Rights form. However, defendant fails to proffer any
details or. authority in support of his averment Contrast People v Kelly, 231 Mich App 627,640641; 588 NW2d 480 (1998) (party may not simply announce an argument in a brief and then
leave it up to the court to discover and rationalize the basis of its claims).
Notwithstanding, defendant admitted at the hearing held September 26, 2019 that he had
been presented the Advice of Rights form. His counsel explained the Advice of Rights form to

2This second “Affidavit of Exhibits” appended all of the previously identified documents as well as purported
transcripts of police body camera footage, texts from Macomb County Sheriff Detective Aaron Hurley to defendant
and response texts from defendant to Det Hurley; a document entitled “Written in the Private Letter to Richard
Caretti”; and copies of MCL 750.145c and 750.145d,
3

him on the record and he acknowledged his counsel had explained his lights to him. Defendant
signed the Advice of Rights form in open court He also stated he understood the basis of his
plea and its ramifications, including the Cobbs agreement Moreover, defendant stated he was
•accepting the plea of his own free will and that no promises or threats had been made to get him
to plead no contest
Therefore, defendant’s signature on the Advice of Rights form was knowingly,
voluntarily and intelligently given. Accordingly, the interests ofjustice do not require setting the
plea aside. MCR 6.310(B)(1).
m. CONCLUSION
For the reasons set forth above, defendant Jason Michael Jett’s “Notice of Revocation of
Power of Attorney & Revocation of Signature Affidavit” is DENIED.
This Opinion and Order neither resolves the last pending claim in this matter nor closes
the case. MCR 2.602(A)(3).
N

IT IS SO ORDERED.

HONORABLE RICHARD L. CARETTI
Circuit Court Judge
DATE: October 4,2019
cc:

Bill Harding, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

OCT- 4 2019

<***<%*

4

V Of

?

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
vs.

Case No. 2019-0195-FH

JASON MICHAEL JETT,
Defendant

OPINION AND ORDER
Tina Renee Borgers has filed a “Truth Affidavit in the Nature of Supplemental Rules for
Administrative and Maritime Claims Rules C(6)” an “Opinion and Order Request. Admissions
with Attachments” and a “Truth Affidavit & Notice of '.Mens rea: Undue Use of Force, Threat
and Coercion, Under the Color of Law and Remedy”.
I. BACKGROUND
Defendant Jason Michael Jett was charged with: I. Child sexually abusive activity
contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to commit
a crime contrary to MCL 750.145d(2)(f). He was bound over January 16, 2019 following a
preliminary examination in the 41B Judicial District Court
On April 16, 2019, defendant moved to quash the felony information. Defendant
contended he went to the Concorde Inn to have sex with an adult rather than a minor child. In
response, People asserted defendant tried to set up a date for sex with and asked for pictures of a
fourteen-year-old girl. The motion to quash was denied June 5,2019.
Tina Renee Borgers sent a letter dated May 10, 2019 of “due diligence” that essentially

challenged die proofs in this matter. On September 6, 2019, defendant filed a “Notice of
Rogatory Appointment” and a “Truth Affidavit in the Nature of Supplemental Rules for
Administrative and Mefitime [sic] Claims Rules”. He filed an “Affidavit Notice of Liability
Regarding Trespass Fee Schedule and Remedy” on September 9,2019. An Opinion and Order
dated September 25, 2019 held the missives wore invalid and that no further action would be
taken on them; fee Court was willing to overlook fee first single act by Borgers in seeking relief
on defendant’s behalf.
On September 17, 2019, defendant filed an “Affidavit of Exhibits”1 for the purported
purpose of “present[ing] our [sic] defense”. He also filed a “Notice and Declaration of
Cancellation and Revocation” on September 20,2019 that stated he was voiding any agreements
between himself and fee United States of America and/or State of Michigan. The missives again
violated MCR 2.107(A)(1) (requiring a party filing a document to serve a copy of every
document on fee other parties), MCR 2.111(A)(1) (requiring all allegations in a pleading to be
clear, concise and direct), MCR 2.119(A)(1) (requiring motions to state wife particularity fee
grounds and authority on which they are based) and MCR 2.119(A)(2) (requiring motions to be
accompanied by briefs citing proper authority); and also violated MCR 2.119(C)(1) (requiring
notice of a hearing on a motion). Consequently, no action was taken on these missives.
On September 20,2019, defendant filed a "Challenge of Jurisdiction” that also sought to
appoint Borgers as his counsel. In conjunction therewith, Borgers filed a Notice of Hearing and
Motion on September 20, 2019 seeking to dismiss this matter; she signed the pleading that
identified her as “Defendant’s GEN. COUNCIL [sic] OF RIGHT”. A second Opinion and Order

‘The "Affidavit of Exhibits” consisted of an “Affidavit if [sic] Truth” in which he essentially denied any
wrongdoing, a copy of the Preliminary Examination title page and an unsigned copy of the Felony Complaint
2

dated September 25, 2019, held Borgers could not represent defendant because she was not a
licensed attorney, held Borgers was guilty of contempt of court for her unauthorized practice of
law, warned Borgers that further activities constituting the unauthorized practice of law would
result in a contempt charge and held defendant’s challenge to jurisdiction lacked merit. A copy
of the decision was mailed to Borgers.
On September 24, 2019, defendant filed a “Certificate of Sole Proprietorship” and
documents entitled “Written in the Private. Letter to William Harding P#28342” and “Written in
the Private Letter to Maroun J Hakim P#28489”. An Opinion and Order dated September 26,
2019 concluded the “Certificate of Sole Proprietorship” lacked any apparent significance and the
other documents required no analysis.
Meanwhile, defendant filed a second “Affidavit of Exhibits” on September 25, 2019 for
the purported purpose of “presenting] our [sic] defense”.2 Given the continued violation of the
identified court rules, no action was taken on the missive.
Defendant was scheduled for trial on September 26,2019. When the case was called and
defendant was asked to join his counsel, Borgers interrupted the proceedings to announce, “We
are living beings, we- wish for remedy”. The Court informed Borgers, again, that she was not
allowed to practice law, her submission of pleadings constituted the unauthorized practice of law
and if she attempted one more time to act as defendant’s attorney or speak on his behalf that she
would be held in direct contempt of court Borgers then asked if the Court was “offering us a
contract” and “if so, we would like full disclosure”. The Court held Borgers in direct contempt of

^This second “Affidavit of Exhibits” appended ail of the previously identified documents as well as purported
transcripts of police body camera footage, texts from Macomb County Sheriff Detective Aaron Hurley to defendant
and response texts from defendant to Det. Hurley; a document entitled “Written in the Private Letter to Richard
Caretti"; and copies of MCL 750.145c and 750.145d.
3

court under MCL 600.916(1) and ordered her taken into custody. Borgers continued to disrupt
the proceedings as she was escorted from the courtroom; her incessant vituperations in die
hallway could also be heard in the courtroom. The Court had Borgers brought back into the
courtroom about one hour later, struck the finding of contempt, warned her against the further
unauthorized practice of law and ordered her released.
Meanwhile, defendant pled guilty to an added count of accosting a child for immoral
purposes contrary to MCL 750.145a in exchange for the dismissal of the original charges and a
Cobbs agreement of no additional jail time.
On September 27, 2019, Borgers filed a request for a subpoena on behalf of defendant
An Opinion and Order dated October 4, 2019 found Borgers’ request again constituted the
unauthorized practice of law, found her in contempt under MCL 600.916(1) and reported the
matter to the State Bar of Michigan Unauthorized Practice of Law Committee for possible legal
action.
Borgers has now again filed various documents.
n. ANALYSIS
The “Truth Affidavit in the Nature of Supplemental Rules for Administrative and
Maritime Claims Rules G(6)” is legal nonsense. As noted, Borgers disrupted the proceedings on
September 26, 2109 and again attempted to act as defendant’s attorney despite her lack of
licensure; she was found in contempt and taken into custody. Borgers’ reliance on
administrative, commercial and maritime law is entirely misplaced. The affidavit is also of no
value. See Holmes v Mich Capital Med Ctr, 242 Mich App 703,711-712; 620 NW2d 319 (2000)
(an unnotarized “affidavit” is not an affidavit). Notwithstanding, Borgers’ arguments on.

4

I

defendant’s behalf constitute the continued unauthorized practice of law. Recall MCL
600.916(1) (person must be licensed to practice law) and Detroit Bar Ass'n v Union Guardian
Trust Co, 282 Mich 216, 223; 276 NW 365 (1937) (practice of law includes drafting of
documents to be presented to courts). Such is grounds for contempt of court MCL 600.916(1).
Borgers signed the “Opinion and Order Request Admissions with Attachments” as
‘"Council Of Right-Next Person-Private Attorney General”. She makes nonsensical arguments
on her and defendant’s behalf Borgers also affirms the filing of previous documents on
defendant’s behalf. Therefore, Borgers has once again engaged in the unauthorized practice of
law. MCL 600.916(1). Accordingly, she is guilty of contempt of. court. Id.

,

Borgers similarly signed the “Truth Affidavit & Notice of Mens rea: Undue Use of
Force, Threat and Coercion, Under the Color of Law and Remedy” as “Attorney in Fact”. She
also modified the case caption to reflect defendant is "paired with :tina-renee:borgers: and Soul
Proprietor of JASON MICHAEL JEIT\ However, Borgers is not a party to this action and
wholly lacks authority to make any arguments on defendant’s behalf. Therefore, Borgers has yet
again engaged in the unauthorized practice of law. MCL 600.916(1). She has also impugned the
integrity of file Court This is also grounds for contempt. Id. and MCR 3.606. In addition, these
filings will also be reported to the State Bar of Michigan Unauthorized Practice of Law
Committee.
m. CONCLUSION
Una Renee Borgers is again warned that she has committed contempt of court for her
above-referenced actions.

5

This Opinion and Order neither resolves the last pending claim in this matter nor closes
the case. MCR 2.602(A)(3).
IT IS SO ORDERED.

HONORABLE RICHARD L. CARETTI
Circuit Court Judge
DATE: October 16,2019
cc:

Bill Hardin, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

‘*'x%xvvx'»

°CT *62019

****Z*£2p

6

STATE OF MICHIGAN
•SIXTEENTH JUDICIAL CIRCUIT COURT
keWmlfr 2 2 2019
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff
Case No, 2019-0195-FH

vs.

JASON MICHAEL JETT,
Defendant

OPINION AND ORDER
Tina Renee Borgers has filed a “Copy: Threat Letter From State Bar”, “A4V-Notice-ofDishonor-And-Criminal-Contempt-of-Court Crimmal'Complainf’ and various “Official U.S.
Bonding/Surety Requests”.
I. BACKGROUND
Defendant Jason Michael Jett was originally charged wife: L Child sexually abusive
activity contrary to MCL 750.145c(2) and H Using fee internet to communicate wife another to

1

commit a crime contrary to MCL 750.145d(2Xf). He was bound over January .16,2019 following
a preliminary examination in fee 41B Judicial District Court,
On April 16,2019, defendant moved to quash the felony information. The motion was
denied June 5,2019.
On September 26,2019, defendant pled guilty to an added count of accosting a child for
immoral purposes contrary to MCL 750.145a in exchange for fee dismissal' Of fee original.
Charges and a Cobbs agreement of no additional jail time,
t

In fee interim, and since defendant's plea, Tina Renee Borgers has filed various missives

J

4

on behalf of defendant She has been repeatedly warned against die unauthorized practice of law,
found in contempt under MCL 600.916(1) and reported to the State Bar of Michigan
Unauthorized Practice of Law Committee for possible legal action.
Borgers has now again filed variousmissives.
H. ANALYSIS
Borgers* filing of these most recent missives yet again represents an attempt to act as
defendant’s attorney despite her lade of licensure. Accordingly, she is guilty of contempt of court
for the unauthorized practice ofJaw. MCL 600,916(1).
Borgers* most recent missives are not relevant, material or jaertment to the criminal
proceedings against defendant Instead, foe missives are, once more, not well grounded In feet;
are not warranted by existing law or a good-feith argument for the extension,, modification, or
reversal of existing, law; serve no proper purpose in this criminal matter involving a third party,
defendant Jett, are an attempt to confuse, intimidate and harass the Court, prosecutor and defense
counsel; and impugn the integrity of tire Court, prosecutor and defense counsel Contrast MCR
1.109(E)(5)(b) and (c). Accordingly, the missives are noted as being filed and will not be further
addressed.
These most recent missives will also be reported to the State Bar of Michigan
Unauthorized Practice ofLaw Committee.
m. CONCLUSION
For the reasons set forth above, Tina Renee Borgers is. guilty of contempt. An appropriate
sanction is reserved.
This Opinion and Order neither resolves the last pending chum in tins matter nor closes
the case. MCR 2.602(A)(3).

f
2

IT IS SO ORDERED.

HONORABLE RtCt
Circuit Court Judge
DATE: November 15,2019

cc:

Bill Hardin, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

3

.. CARETTi

STATE-OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
NN&mlfr' 2 9 2019

PEOPLE OF THE STATE OF MICHIGAN,

* %&&&&&£>
Plaintiff
Case No. 2019-0195-FH

vs.

JASON MICHAEL JETT,
Defendant
« .*

OPINION AND ORDER
Defendant Jason Michael Jett and Tina Renee Borgers have filed farther missives.
L BACKGROUND
Defendant Jason Michael Jett was originally charged with: L Child sexually abusive
activity contrary to MCL 75Q.145c(2) and IL Using the internet to communicate with another to
commit a Crime contrary to MCL 750.145d(2-)(f). He was bound over January 16,2019 following
a preliminary examination in the 41B Judicial District Court
On April 16, 2019, defendant moved to quash the felony information. The motion was
denied June 5,2019.
On September 26,2019, defendant pled guilty to an added count of accosting a child for
immoral purposes contrary to MCL 750.145a in exchange for the dismissal of the original charges
and a Cobbs agreement of no additional jail time.
On November 20,2019, defendant moved to withdraw his plea. The motion was denied
and he was sentenced to six days in the Macomb County Jail with credit for time served of six
days; probation for five years; compliance with the Sex Offenders Registration Act, MCL 28.721

et seq.; DNA testing; and various costs and fees.
Defendant and Una Renee Borgers have now .filed further missives.
H. ANALYSIS
A. “Notice-of-Settlement-and-Closure-of-Account”
and “Letter-of-Rogatory-Aceeptance-for-Honor”
Borgers5 signing-of these missives1 once again represents an attempt to act as defendant’s
attorney despite her lack of licensure. Accordingly, she is yet again guilty of contempt of court for
the unauthorized practice of law. MOL 600.916(1).
These missives are not relevant, material or pertinent to the criminal proceedings against
defendant2 Indeed, civil remedies are of no effect and lack any validity in criminal proceedings.
Accordingly, these missives are legal nullities and will not be further addressed.
B. “Notice-of First-and-Final-Waming”
and “No-Judicial-Of5ccr-is-Immune”
Borgers’ signing'of these missives* once agaih represents an attempt to act as defendant’s
attorney despite her lack of licensure. Accordingly, she is yet again guilty of contempt of court for
the unauthorized practice of law. MCL 600.916(1).
These missives' are similarly irrelevant, immaterial or impertinent to the criminal
proceedings against defendant; civil remedies are of no effect and lack any validity in criminal
proceedings.4 MCL 691.1407(5) governs.judicial immunity.
Accordingly, these missives are legal nullities and will not be further addressed.

'Defendant has also signed the “Letter-of-Rogatory-Acceptance-for-Honor”.
^The missives espouse sovereign citizen/redemptionist theories that have been repeatedly discredited. Recall US v
Benabe, 654 F3d 753,767 (CA 7,2011); USvHart, 545 F Supp 470,474 (DND, 1982), affd 701 F2d 749 (CA 8,
1983); McLaughlin v CUlMortgctge, Inc, 726 F Supp 2d 201,214 <D Conn, 2010); Anderson v O'Sullivan, 224 Md
App SOI, 508-513; 121 A3d 181 (2015); and Blocker v USBankNat‘1 Ass'n, 993NE2d 1154,1157 (hid App, 2013).
^Defendant has also signed die “Notice-of-First-and-Final-Warning”,
4See n 2. Moreover, as previously explained, defendant and Borgers can not unilaterally impose a contract upon
anyone. Contrast Mallory v Detroit, 181 MichApp 121,127; 449 "NW2d 115 (1989).

2

C. ‘That-is-not-my-Name”
Borgers’ signing and filing of this missive' once again represents an attempt to act as
defendant’s attorney despiteher lack of licensure. Accordingly, she is yet again guilty of contempt
of court for the unauthorized practice oflaw. MCL 600.916(1).
The missive relies on. discredited sovereign citizen/redemptionist theories.5 The discourse
regarding “dog Latin5* and “real Latin55 is nonsensical babble.6
\

D. “Notice-of-contempt-proceedings”
Borgers has filed a copy ofan e-mail advising her to discontinue ex parte communications
with the Court This missive was apparently-filed for posterity’s sake.
E. Other
The fifing of these noted missives unfailingly—despite prior notices—violates various
procedural and ethical rules.7
Borgers has been repeatedly informed that her prior filings constituted the unauthorized
practice of law. She is forewarned that the filing of an additional missive(s) will result in the
immediate issuance of a bench warrant for her arrest on criminal, contempt of court charges.
in. CONCLUSION
For the reasons set forth above:
A. The missives entitled “Notice-of-Settlement-and-Closure-of-Account?,3 “Letter-of-

6Recall El Ameen Bey v Slump/, 825 F Supp 2d 537,551 (D NJ, 2011) (rejecting filing consisting of "nothing but
NW2d 381 (1976) (UCC governs commercial transactions); see also MCL 440.1103(l)(a) and (b).
’Including but not limited to MCR 2.107(A)(1) (requiring a party filing a document to serve a copy of every
document on the other parties), MCR 2.111(AX1) (requiring all allegations in a pleadmgto be clear, concise and
direct), MCR 2.119(A)(1) (requiring motions to state with particularity the grounds .and authority on which thtyare
based), MCR 2.119(A)(2) (requiring motions to be accompanied by briefe citing proper authority), MCR 2. a
1)
(requiring notice ofhearinp on motions) and The Gode ofJudicial Conduct, Canon 3(AX4) (precluding a judge from
considering ex parte communications).
3

Rogatory-Acceptance-fbr-Honor”, “Notice-of Fiist-and-Final-Waming”, “No-Jiidicial-Officer-isImmune”, ‘That-is-not-my-Name” and “Notice-of-contempt-proceedings” are legal nullities and
VOID; and
B. Tina Renee Borgers is guilty of contempt, MCL 600.916(1), andan appropriate sanction
is reserved.
This Opinion andOrder again resolves the lastpending claim in this matter, which remains
closed. MCR 2.602(A)(3).
IT IS SO ORDERED.

LE RICHARD L. CARETTI
DATE: November 22,2019
ec:

Bill Harding, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Una Renee Borgers

4

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case No. 2019-0195-FH

vs.

JASON MICHAEL JETT,
Defendant.

OPINION AND ORDER ’
Defendant Jason Michael Jett filed additional missives onNovember 25,2019.
I. BACKGROUND
Defendant Jason Michael Jett was originally charged with: I. Child sexually abusive
activity contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to

commit a crime contrary to MCL 750.145d(2)(f). He was bound over January 16,2019 following
a preliminary examination in the 4IB Judicial District Court.
On April 16, 2019, defendant moved to quash the felony information. The motion was
denied June 5,2019.
On September 26, 2019, defendant pled guilty to an added count of accosting a child for
immoral purposes contrary to MCL 750.145a in exchange for the dismissal of the original charges
and a Cobbs agreement of no additional jail time.
On November 20, 2019, defendant moved to withdraw his plea. The motion was denied
and he was sentenced to six days in the Macomb County Jail with credit for time served of six

days; probation for five years; compliance with the Sex Offenders Registration Act, MCL 28.721
etseq.; DNA testing; and various costs and fees.
Defendant has now filed additional missives.
II. ANALYSIS
A. “Notices of Revocation of Power of Attorney &
Revocation of Signature Affidavit”
Defendant seeks to rescind his signature on the Notice of Right to Timely Appeal and
explanation of “How to Make Court Ordered Payments” on grounds of coercion and fraud.
Significantly, defendant offers no factual evidence in support of his argument that he was
coerced or fraudulently induced into signing these documents. Contrast People v Kelly, 231 Mich
App. 627,641; 588 NW2d 480 (1998) (party can not merely announce a position and leave it up to
the court to discover and rationalize the basis for its claims).
Moreover, the aptly titled Notice ofRight to Timely Appeal is just that, noticed defendant’s
appeal rights. The form does not obligate him in any way and his signature only represents that he
has received a copy of the form.
Similarly, the explanation of “How to Make Court Ordered Payments” simply describes
defendant’s payment obligations. These costs were properly assessed at sentencing. Defendant
may ignore the document at his own peril; his failure to comply may result in a violation of his
probation and imposition of a prison sentence.
B. “Letter-of-Rogatory-Acceptance-for-Honor”
This missive is not relevant, material or pertinent to the criminal proceedings against
defendant.1 Indeed, civil remedies are of no effect and do not substitute for a validly imposed

'The missives espouse sovereign citizen/redemptionist theories that have been repeatedly discredited. Recall US.v
Benabe, 654 F3d 753,767 (CA 7,2011); USvHart, 545 F Supp 470,474 (DND, 1982), affd 701 F2d 749(CA8,
1983); McLaughlin v CitiMortgage, Inc, 726 F Supp 2d 201,214 (D Conn, 2010); Anderson v O Sullivan, 224 Md
2

criminal sentence.2
Accordingly, this missive is a legal nullity and will not be further addressed.
C. Order ofProbation
This missive also relies on discredited sovereign citizen/redemptionist theories.3 The Order
of Probation was signed November 22, 2019. Defendant’s filing of an unsigned copy is
acknowledgment that he has received the document and is aware of his obligations. He may ignore
the document at his own peril; his failure to comply may result in a violation of his probation and.
imposition of a prison sentence.
III. CONCLUSION
For the reasons set forth above, defendant Jason Michael Jett’s November 25, 2019
missives are legal nullities and VOID.
This Opinion and Order agaimresolves the last pending claim in this matter, which remains
closed. MCR 2.602(A)(3).

r

IT IS SO ORDERED.

ftONORABLE RICHARD L. CARETTI
Circuit Court Judge
DATE: November 27,2019
cc:

OF # 'V

Bill Harding, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

/"41
VflF MV0,.-’"

App 501,508-513; 121 A3d 181 (2015); and Blocker v US Bank Nat 7 Ass
JSee n 1, recall Kelly, 231 Mich App at 641.
3See n 2 and subsection B.

3

993 NE2d 1154,1157 (Ind App, 2013).

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT

ko&r 0 7 ?019

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff

Case No. 2019-0195-FH

vs.

JASON MICHAEL JETT,
Defendant

OPINION AND ORDER
Defendant Jason Michael Jett filed additional missives on November 27,2019.
L BACKGROUND
Defendant Jason Michael Jett was originally charged with: I. Child sexually abusive
activity contrary to MCL 750.145c(2) and H. Using the internet to communicate with another to
commit a crime contrary to MCL 750.145d(2)(f)..He was bound over January 16,2019 following
a preliminary examination in the 41B Judicial District Court
On April 16, 2019, defendant moved to quash the felony information. The motion was
denied June 5,2019.
On September 26,2019, defendant pled guilty to an added count of accosting a child for
immoral purposes contrary to MCL 750.145a in exchange for the dismissal of the original charges
and a Cobbs agreement ofno additional jail time.
On November 20,2019, defendant moved to withdraw his plea. The motion was denied
and he was . sentenced to six days in the Macomb County Jail with credit for time served of six
days; probation for five years; compliance with the Sex Offenders Registration Act, MCL 28.721

et seq.; DNA testing; and various costs and fees.
Defendant has now filed additional missives.
H. ANALYSIS
Defendant seeks to rescind his signature on the “Michigan Sex Offender
Verification/Update Form” on grounds of coercion and fraud. He also contends he has no duty to
register or pay fees as a sex offender.
Significantly, defendant offers no factual evidence or legal authority in support of his
argument that he was coerced or fraudulently induced into signing this-document Contrast People
v Kelly, 231 Mich App 627,641; 588 NW2d 480 (1998) (party can not merely announce a position
and leave it up to the court to discover and rationalize the basis for its claims).
The Cobbs agreement provided defendant would not receive any additional jail time but
would serve a sentence of probation. The sentencing agreement did not absolve defendant of his
obligation to register as a sex offender.
Defendant’s claim thathe has prepaid his sex offender registration fees and is exempt ftom
levy is evidently based on Ins continued reliance on discredited sovereign citizen/redemptionist
theories. Recall US v Benabe, 654 F3d 753,767 (CA 7,2011); US v Hart, 545 F Supp 470,474'
(DND, 1982), affd 701 F2d 749 (CA 8, 1983); McLaughlin v CitiMortgage, Inc, 726. F Supp 2d
201,214 (D Conn, 2010)', Andersonv O’Sullivan, 224Md App501,508-513; 121 A3d 181 (2015);
and Blocker v US Bank Nat 7 Ass ’n, 993 NE2d 1154,1157 (Ind App, 2013). Consequently, his
contention utterly lacks any legal merit.
m, CONCLUSION
For the reasons set forth above, defendant Jason Michael Jett’s November 27, 2019
missives are legal nullities and VOID.

2

This Opinion and Order again resolves the lastpendij^claim in this matter, which remains
closed. MCR 2.602(A)(3),
ITIS SO ORDERED.

L. CARETTI

DATE: December 2,2019
cc;

BiU Harding, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

3

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
PEOPLE. OF THE STATE OF MICHIGAN,
Plaintiff,
Case No. 2019-0195-FH

vs.
JASON MICHAEL JETT,
Defendant
i

OPINION AND ORDER
Defendant Jason Michael Jett filed additional missives on December 11 and 16,2019.
I. BACKGROUND
Defendant Jason Michael Jett was originally charged with: I. Child sexually abusive
activity contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to
commit a crime contrary to MCL 750.145d(2)(f). He was bound over January 16,2019 following
a preliminary examination in the 4IB Judicial District Court.
On April 16, 2019, defendant moved to quash the felony information. The motion was
denied June 5,2019.
On September 26, 2019, defendant pled guilty to an added count of accosting a child for
immoral purposes contrary to MCL 750.145a in exchange for the dismissal of the original charges
and a Cobbs agreement of no additional jail time.
On November 20, 2019, defendant moved to withdraw his plea. The motion was denied
and he was sentenced to six days in die Macomb County Jail wife credit for time served of six
days; probation for five years; compliance wife fee Sex Offenders Registration Act, MCL 28.721
et seqDNA testing; and various costs and fees.

STATE OF MICHIGAN
SIXTEENTH JUDICIAL CIRCUIT COURT
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
vs.

Case No. 2019-0195-FH

JASON MICHAEL JETT,
Defendant
/

OPINION AND ORDER
.Defendant Jason Michael Jett moves for a stay of his sentence.
LBACKGROUND
Defendant Jason Michael Jett was originally charged with: I. Child sexually abusive
activity contrary to MCL 750.145c(2) and II. Using the internet to communicate with another to
commit a crime contrary to MCL 750.145d(2)(f). He was bound over January 16,2019 following
a preliminary examination in the 41B Judicial District Court
On April 16, 2019, defendant moved to quash the felony information. The motion was
denied June 5,2019.
On September 26,2019, defendant pled guilty to an added count of accosting a child for
immoral purposes contrary to MCL 750.145a in exchange for foe dismissal offoe original charges
and a Cobbs agreement of no additional jail time.
On November 20,2019, defendant moved to withdraw his plea. The motion was denied
and he was sentenced to six days in foe Macomb County Jail with credit for time served of six
days; probation for five years; compliance with the Sex Offenders Registration Act, MCL 28.721

(§2)

et seq.; DNA testing; and various costs and fees.
Defendant filed an application for leave to appeal with die Court of Appeals on December
10, 2019- An unpublished Order dated February 10, 2020 denied leave to appeal (Docket No.
351940).
Defendant now moves for a stay of his sentence.
D. ANALYSIS
Defendant asserts he has beat damaged, his civil ri^ts have been violated-and he objects
to fee Presentence Investigation Report Hence, defendant demands a stay of his sentence.
Motions for postappeal relief are governed by MCR 6.501 ,et seq.
MCR 6.502 provides in pertinent part:
(A) The request for reliefunder this subchapter must be indie form ofa motion
to set aside or modify the judgment The motion must specify all of the grounds for
relief which are available to the defendant and of which the defendant has, or by the
exercise of due diligence, should have knowledge.
***

(C) The motion may not be noticed for hearing, and must be typed or legibly
handwritten and include a verification by the defendant or defendant’s lawyer in
accordance with MCR 1.109(D)(3). Except as otherwise ordered by the‘court, the
combined length of the motion and memorandum of law in support may not exceed
50 pages double-spaced, exclusive of attachments and exhibits. *** The motion must
be substantially in the form approved by the State Court Administrative Office, and
must indude:
*♦ *

(1X) The relief requested;
(12) The grounds for the relief requested;
(13) The facts supporting each ground, stated in summary form;
(14) 'Whether airy of the grounds for the reliefrequested were raised before; if
so, at what stage of the case, and, if not, the reasons they were not raised;
***

(G)(1) Except as provided in subrule (G)(2), regardless of whether a defendant
has previously filed a motion for relieffrom judgment, after August 1,1995, one and
only one motion for relief from judgment may be filed with regard to a conviction.
The court shall return without filing any successivemotions for relief from judgment.
A defendant may not appeal the denial or rejection of a successive motion.
(2) A defendant may file a second or subsequent motion based on a retroactive
change in law that occurred after the first motion for relief from judgment or a claim

2

t
f •

i

!

ofnew evidence that was not discoverable before the first such motion. Hie clerk shall
refer a successive motion (hat asserts that one of these exceptions is applicable to die
judge to whom die case is assigned for a determination whether the motion is within
one of the exceptions.

i
i

MCR 6.503 provides:

i

1

<

(A)(l) A defendant seeking reliefunder this subchapter must file a motion and
a copy ofthe motion with the clerk of the court in which the defendant was convicted
and sentenced.

:

***

(B) The defendant shall serve a copy of the motion and notice of its filing on
the prosecuting attorney. Unless so ordered by the court as provided in thissubchapter,
die filing and service of the motion does not require a response by the prosecutor.

i

i

MCR 6.504(B) provides in pertinent part:
(1) The court shall promptly examine the motion, together with all die files,
records, transcripts, and correspondence relating to the judgment under attack. * * *
(2) If it plainly appears from the face of the materials described in subrule
(B)(1) that the defendant is not entitled to relief, the court shall deny the motion
without directing further proceedings. The order must include a concise statement of
the reasons for the denial.

t
I
\
i

i
i

MCR 6.508(D) provides in pertinent part
' The defendant has the burden of establishing entitiement to the relief
requested. The court may not grant relief to the defendant if the motion
***

(3) alleges grounds for relief, other than jurisdictional defects, which could
have been raised on appeal from the conviction and sentence or in a prior motion under
this subchapter unless the defendant demonstrates
(a) good cause for failure to raise such grounds on appeaL.and
(b) actual prejudice from the alleged irregularities (hat support
the claim for relief As used in this subrule, “actual prejudice” means
that,

i

***

(ii) in a conviction entered on a plea of guilty, guilty
but mentally ill, or nolo contendere, fee defect in fee
proceedings was such feat it renders the plea an involuntary
one to a degree that it would be manifestly unjust to allow the
conviction to stand;
(iii) in any case, the irregularity was. so offensive to the
maintenance of a sound judicial process that the conviction
should not be allowed to stand regardless of its effect on the
outcome ofthe case;

3

*
\

(iv) in the case of a challenge to the sentence, the
sentence is invalid.
As a preliminary matter, the record does not permit determination of whether defendant
raised these issues on appeal. To die extent defendant raised these issues and the‘Court of Appeals
denied relief, this Court can not reconsider the issues. See, e.g., Tames v Munson, 42 Mich App
256; 201 NW2d685 (1972); see also People v Wells. 103 Mich App 455,462; 303 NW2d 226 (1981)
(‘‘thrust of the [law ofthe case] doctrine is that an inferior court is bound by the rulings of a superior
court”). Ifdefendant did not raise these issues on appeM, hehas neither alleged nor proven good cause
for failing to do so. Notwithstanding, defendant’s arguments will be considered.
Defendant’s contentions that he has been damaged and his civil rights have been violated
lack substantive analysis and any citations to competent authority. The contentions will not be
further addressed. People v Kelly, 231 Mich App 627,641; 588 NW2d 480 (1998) (party can not
merely announce a position and leave it up to foe court to discover and rationalize the hasis for its
claims).
Defendant’s objection to receipt of his PSffi. is based on FR Crim P 32. The objection
wholly lacks merit; FR Crim P 32 does not apply to this action. Bowers v Bowers, 216 Mich App
491; 549 NW2d 592 (1996) (Michigan court rules, not federal, control state court actions).
Defendant has not established a violation of MCR 6.425(B).
Therefore, defendant is not entitled to relief.
m. CONCLUSION
For foe reasons set’forth above, defendant Jason Michael Jett’s motion for a stay of his
sentence is DENIED.
This Opinion and Order again resolves foe last pending claim in this matter, which remains
closed. MCR2.602(A)(3).

4

/
<

IT IS SO ORDERED.
/

*

HONORABLE RICHARD L. CARETTI
Circuit Court Judge
DATE: March 20,2020
cc:

Bill Harding, Esq.
Maroun Hakim, Esq.
Jason Michael Jett
Tina Renee Borgers

I

5

Additional material
from this filing is
available in the
Clerk's Office.

